                                      TVA RESTRICTED INFORMATION




Memorandum from the Office of the Inspector General



May 31, 2012

Joseph J. Hoagland, WT 7B-K

REQUEST FOR FINAL ACTION – AUDIT 2010-13658 – DISTRIBUTOR AUDIT OF
KNOXVILLE UTILITIES BOARD



Attached is the subject final report for your review and action. Your written comments,
which addressed your management decision and actions planned or taken, have been
included in the report. Please notify us when final action is complete.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have questions or wish to discuss our findings, please contact me at (865) 633-7373
or Richard C. Underwood, Director, Corporate Governance and Finance Audits, at
(423) 785-4824. We appreciate the courtesy and cooperation received from your staff
during the audit.



David P. Wheeler
Deputy Assistant Inspector General
 (Audits)
ET 3C-K

MMN:DBS
Attachment
cc (Attachment):
      Micheal B. Fussell, WT 9B-K
      Peyton T. Hairston, Jr., WT 7B-K
      Cynthia L. Herron, OCP 1F-NST
      Tom Kilgore, WT 7B-K
      Richard W. Moore, ET 4C-K
      Robert A. Morris, WT 7C-K
      Ronald L. Owens, SP 3A-C
      Emily J. Reynolds, OCP 1L-NST
      John M. Thomas III, MR 6D-C
      Van M. Wardlaw, OCP 1N-NST
      Robert B. Wells, WT 9B-K
      OIG File No. 2010-13658
      WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
       distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
               is not to be further distributed without prior approval of the Inspector General or his designee.

                                      TVA RESTRICTED INFORMATION
 


        
                              TVA RESTRICTED INFORMATION


                                                                                Audit Report
 
Office
      of the Inspector General                                                                                                 

                                                                     To the Senior Vice President,
                                                                     Policy and Oversight           
                                                                      
                                                                                                                               

 

 

 

 

 

DISTRIBUTOR AUDIT OF
 


KNOXVILLE UTILITIES
 



BOARD 
 

 




 

 
 
 

 
Audit Team                                                                                                     Audit 2010-13658
Melissa M. Neusel                                                                                                 May 31, 2012
Jessica L. Monroe
Jennifer R. Torregiano
            WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
            distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
                    is not to be further distributed without prior approval of the Inspector General or his designee. 


                            TVA RESTRICTED INFORMATION
Office of the Inspector General                                Audit Report




ABBREVIATIONS
CIS                        Customer Information System
FY                         Fiscal Year
KUB                        Knoxville Utilities Board
kW                         Kilowatt
kWh                        Kilowatt Hours
OIG                        Office of the Inspector General
SMC                        Small Manufacturing Credit
TVA                        Tennessee Valley Authority




Audit 2010-13658

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                       Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

FINDINGS ......................................................................................................... 3
   USE OF ELECTRIC REVENUE FOR UNAPPROVED PURPOSES ................ 4

   IMPROPER REPORTING OF ELECTRIC SALES AND/OR
   POTENTIAL DISCRIMINATION IN PROVIDING POWER TO
   CUSTOMERS................................................................................................... 5

   OTHER ISSUES ............................................................................................... 6

   TVA OVERSIGHT OPPORTUNITIES .............................................................. 8

RECOMMENDATIONS .................................................................................. 8


APPENDICES
A. OBJECTIVE, SCOPE, AND METHODOLOGY 

B. LETTER DATED MAY 18, 2012, FROM MINTHA E. ROACH TO DAVID P.
   WHEELER 

C. MEMORANDUM DATED MAY 21, 2012, FROM CYNTHIA L. HERRON TO
   DAVID P. WHEELER 




Audit 2010-13658

                                      TVA RESTRICTED INFORMATION
                        Aud
                          dit 2010-1
                                   13658 – DDistributo or Audit o
                                                                of
                               Knoxxville Utillities Boa
                                                       ard
                                   EXE
                                     ECUTIVE S
                                             SUMMAR
                                                  RY

Why
  y the OIG Did
            D This Au
                    udit

  In
   n 2002, the Tennessee   e Valley Auuthority’s (T
                                                  TVA) Board of Directorrs approved      d
  and made av  vailable to distributors
                                      s six wholessale Power Contract flexibility
  options. On ne of the opptions terminnated TVA’’s contract a  authority an nd obligatioons
   egarding distributors’ retail
  re                       r     rates. Four distrributors (Kn noxville Utiliities Board
  [K
   KUB], Meriw wether Lew wis Electric Cooperativ
                                       C          ve, Memphiss Light, Gas and Wate       er
  Division,
  D         andd Scottsborro Electric Power
                                       P      Boarrd) selected  d this optionn. Although
  each of thesse four distrributors hass the authorrity to deterrmine the re etail rates itt will
  charge to its
              s customers s with limite
                                      ed or no ove ersight by TTVA, the TV  VA Board d  did
  not relinquis
              sh its responsibility to ensure
                                       e       (1) tthe power p purchased is sold and
  distributed to
               o the ultima
                          ate consum mer without d  discriminattion among consumerss of
   he same cla
  th           ass; and (2) no discrimminatory ratte, rebate, oor other spe  ecial
  concession will
               w be mad   de or given to any conssumer.

  The
  T supplem    mental agre eement betw  ween TVA a  and KUB b  became effe  ective in 2002.
  As
  A part of ou  ur annual audit plan, thhe OIG (Offfice of the IInspector GGeneral)
  in
   ncluded the e audit of the electric system of KUB, a distriibutor base  ed in Knoxville,
  Tennessee,
  T              for compliaance with thhe TVA Pow  wer Contract for the period July 2  2008
  th
   hrough June 2010. Ke     ey contract provisions included (1  1) proper reeporting of
  electric sales, (2) nondiscriminatio on in providding power, and (3) use of electricc
  re
   evenue for approved purposes.
                            p           For
                                        F fiscal ye ear (FY) 20 010, KUB p provided pow  wer
  to
   o approxima  ately 197,000 custome   ers resulting in electricc sales reve
                                                                            enue of
  approximate  ely $455 million to KUB  B. At June 30, 2010, K   KUB had a 13.55 perccent
  cash ratio be efore actuaal FY 2011 capital
                                        c      expe enditures aand a 5.03 p percent cassh
   atio after ac
  ra           ctual FY 2011 capital expenditure
                                        e           es, which iss within TVAA’s establisshed
  guidelines foor adequate  e cash reseerve ratios oof 5 to 8 pe
                                                               ercent.

Wha
  at the OIG Found
             F

  KUB
  K    was ge enerally in compliance
                          c            with two off the three key contracct provision
                                                                                    ns,
  but we notedd noncomp  pliance relatted to the a
                                                 approved usse of electric revenuess.
  Additionally,
  A             we noted a few otherr minor issu ues regardin ng required
                                                                        d documenttation
  and information in the billing
                          b      syste
                                     em.

     Key Contract Provis sions 
      KUB was  s not in com
                          mpliance with the curre
                                                ent contracct provision regarding tthe
      use of electric revennue for appproved purp
                                                poses. Spe ecifically, in FY 2009, w
                                                                                   we
      found $7 76,500 of electric syste
                                      em funds w
                                               was deposite ed in an economic
      developm ment accou unt shared by
                                      b the four KUB utility service divvisions.
      Economiic developm  ment is not an approveed use of ellectric systeem revenuees
      per the Power
               P      Conttract. Durinng FYs 20099 and 2010 0, a total of $111,375 w
                                                                                   was
      disbursed from this shared eco  onomic devvelopment a account and  d charged tto an
      electric system
               s       operating expe ense accou nt.
                                                                                            Page i

                             TVA RESTRIICTED INFORM
                                                  MATION
                       Aud
                         dit 2010-1
                                  13658 – DDistributo or Audit o
                                                               of
                              Knoxxville Utillities Boa
                                                      ard
                                 EXE
                                   ECUTIVE S
                                           SUMMAR
                                                RY

      TVA man   nagement has
                           h stated theyt   are pla
                                                  anning to re ecommend the TVA B    Board
      formally approve a Use of Rev    venues policcy that allow
                                                               ws electric revenue too be
      utilized fo
                or economic developm   ment under certain circcumstancess. However, if
      this apprroval is not granted, we e consider this use of funds to be ea
      noncomp   pliance issu
                           ue that shouuld be disco
                                                  ontinued. A  Additionallyy, since KUB is
      required to keep the e electric sy
                                       ystem gene eral books o of accountss in accordaance
      with the Federal Energy Regullatory Com mission, these type exxpendituress
      should be accounte   ed for as do
                                      onations rat her than ass operating expenses.

      KUB was s generally in complian  nce with the
                                                  e other two
                                                            o key contraact provisions
      (proper reporting
              r         off electric sales and nonndiscrimina
                                                            ation in provviding poweer),
      although we noted several
                           s        cus
                                      stomer acco ount miscla
                                                            assificationss, which KU
                                                                                   UB
      either ad
              ddressed orr is in the prrocess of ad
                                                  ddressing.
     Other Iss
              sues 
      KUB cou uld improve its compliaance with otther contract provision ns and/or
      KUB’s ow wn policies by (1) obta
                                     aining and m maintaining
                                                            g required d documentattion
      and (2) in
               ncreasing accuracy
                          a         off contract de
                                                  emand in thhe billing syystem.

  We
  W also iden ntified two areas
                          a      wherre TVA’s ovversight of ddistributors should be
  enhanced. The
              T two iss  sues, addre essing (1) d
                                                distributors using electric funds fo
                                                                                   or
  economic de evelopmentt and (2) the lack of a joint-cost sstudy, have been reported
   n previous OIG
  in          O distribu  utor audit re
                                      eports, and
                                                d TVA has a agreed to ta ake corrective
  action on the
              ese issues..

Wha
  at the OIG Recommen
             R      nds

  We
  W make 6 specific rec  commendattions in thiss report that require KU     UB action a
                                                                                      and
  re
   ecommend TVA’s Sen    nior Vice Prresident, Po  olicy and Oversight, w work with KUUB to
  re
   esolve them
             m. These re ecommendations gene       erally relate
                                                               e to (1) commplying with
                                                                                      h
  Power
  P      Contrract provisions and (2) remediatin   ng classificcation issuees. In addition,
  to
   o enhance TVA’s
              T      overrsight of all distributorss, TVA’s Se enior Vice PPresident, P
                                                                                      Policy
  and Oversigght, should address
                          a        annd take corrrective actio on on two isssues identtified
  at KUB that have been reported in   n previous O OIG distribu utor audit re
                                                                            eports.

  B and TVA Manageme
KUB                ent’s Comm
                            ments

  KUB
  K     and TVVA management disag       greed with o our finding regarding the
  noncomplian  nt use of ele ectric syste
                                        em funds fo or economicc developm ment purposses.
  KUB
  K     stated it intends too continue the
                                         t practice  e of using m
                                                                modest amo  ounts of ele
                                                                                       ectric
  sy
   ystem fund ds for econo omic develo  opment purrposes. TV    VA stated it does not plan
  to
   o take any action
               a       priorr to complettion of its cu
                                                     urrently onggoing review of TVA
  re
   egulatory policy and th  he TVA Boa  ard’s actionn on that revview.


                                                                                       P
                                                                                       Page ii

                            TVA RESTRIICTED INFORM
                                                 MATION
                      Aud
                        dit 2010-1
                                 13658 – DDistributo or Audit o
                                                              of
                             Knoxxville Utillities Boa
                                                     ard
                                EXE
                                  ECUTIVE S
                                          SUMMAR
                                               RY

   KUB
   K     and TV
              VA management generally agreed    d with our o other recom
                                                                       mmendationns,
   and KUB staated it has taken
                          t     action on the maajority of th
                                                            he recomme endations p
                                                                                 prior
   to
    o issuance of this repo
                          ort. See Apppendix B fo
                                                or KUB’s co  omplete ressponse and
                                                                                 d
   Appendix
   A         C for TVA’s complete
                          c         re
                                     esponse.

Audiitor’s Resp
              ponse

   The
   T OIG agrrees with th   he actions planned
                                       p       and
                                                 d taken by KUB in reggards to all
   re
    ecommendations with the excepttion of the rrecommend   dation regarrding the usse of
   electric syste
                em funds foor economic developm ment. We m maintain tha
                                                                      at until the T
                                                                                   TVA
   Board
   B       forma
               ally approvees a Use off Revenues policy expressly apprroving
   distributors’ use of elec           f econom ic developm
                           ctric funds for                 ment expen nses, such use
   is
    s not allowe
               ed under the e terms of the
                                        t current Power Conntract.




                                                                                  P
                                                                                  Page iii

                           TVA RESTRIICTED INFORM
                                                MATION
Office of the Inspector General                                                                   Audit Report


BACKGROUND
Knoxville Utilities Board (KUB) is a distributor for Tennessee Valley Authority
(TVA) power based in Knoxville, Tennessee, with revenues from electric sales to
end-use customers of approximately $455 million in fiscal year (FY) 2010. Prior
to April 1, 2011,1 TVA relied on distributors to self-report customer usage and
subsequently the amount owed to TVA (Schedule 1). Customers are generally
classified as residential, commercial, manufacturing, and lighting. Within these
classes are various rate classifications based on the customer type and usage.
Table 1 shows the customer mix KUB reported to TVA as of June 2010.

                             KUB’s Customer Mix as of June 2010
                                               Number of                                   Kilowatt Hours
         Customer Classification                                       Revenue
                                               Customers                                     Sold (kWh)
    Residential                                      173,038            $212,390,714         2,528,986,569
    General Power – 50 Kilowatt (kW)
                                                       20,388              38,420,449          397,073,896
    and Under (Commercial)
    General Power – Over 50 kW
                                                        2,991            192,401,485         2,600,122,606
    (Commercial or Manufacturing)
    Street and Athletic                                     86              3,572,428           32,348,718

    Outdoor Lighting2                                     796               3,598,308           28,842,583

    Unbilled Revenue                                                        4,157,149           27,954,823

     Total                                           197,299            $454,540,533         5,615,329,195
                                                                                                      Table 1

TVA’s distributors are required to establish control processes over customer
setup, rate application, and measurement of usage to ensure accurate and
complete reporting to TVA. KUB uses two systems, Lodestar and Customer
Information System (CIS), to capture customer data. Lodestar handles billing for
KUB’s larger commercial customers. All Lodestar data is copied into CIS for bill
presentment and reporting. CIS calculates noncomplex customer rates
(residential and small commercial) and also provides the system of record for
storing historical data, such as demand, consumption, credits, etc. KUB uses
Lodestar/CIS to establish and set up new customers, input customer meter
information, perform the monthly billing process, and maintain customer account
information. Additionally, CIS provides KUB with the management reporting
capabilities (e.g., exception reports) designed to ensure the accuracy and
completeness of the customer invoice and the Schedule 1 to TVA. All other
1
     On April 1, 2011, TVA moved from distributors self-reporting customer usage to billing distributors based
     on actual energy and demand takings using meter readings from the wholesale delivery points.
2
     The “Number of Customers” represents those customers who only have Outdoor Lighting accounts at
     June 30, 2010. In addition, another 20,106 customers had Outdoor Lighting accounts as well as
     accounts for other services. However, the totals for “Revenue” and “Kilowatt Hours Sold (kWh)” include
     both categories of Outdoor Lighting customers.
Audit 2010-13658                                                                                       Page 1
                                           Audit 2010-1328e 1
                                     TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                      Audit Report


accounting and finance responsibilities are handled by KUB, which has a seven-
member Board of Commissioners who provide oversight and a President and
Chief Executive Officer and management team who manage the daily activities.
In addition to providing electric service, KUB also provides water, waste water,
and gas utility services.

Granting of Authority to Set Retail Rates
In 2002, the TVA Board approved and made available to distributors six wholesale
Power Contract flexibility options. One of the options terminated TVA’s contract
authority and obligations regarding distributors’ retail rates. In 2002, KUB and
TVA agreed to a wholesale Power Contract supplement that granted KUB
authority to set its own retail rates. Three other distributors (Meriwether Lewis
Electric Cooperative, Memphis Light, Gas and Water Division, and Scottsboro
Electric Power Board) were also granted this authority by TVA. As a result, these
four distributors have the authority to determine the retail rates charged to their
customers with no or limited oversight by TVA. The TVA Board, however, did not
relinquish the responsibility to ensure (1) the power purchased is sold and
distributed to the ultimate consumer without discrimination among consumers of
the same class; and (2) no discriminatory rate, rebate, or other special concession
will be made or given to any consumer.

Cash Position and Rate Increases
As of June 30, 2010, KUB had $56.9 million in cash and cash equivalents and a
13.55 percent cash ratio3 before actual FY 2011 capital expenditures. Actual
capital expenditures in FY 2011 were $35.8 million, which results in a 5.03 percent
cash ratio. TVA’s established guidelines for an adequate cash reserve ratio range
from 5 to 8 percent. Table 2 shows the balance at June 30, 2010, for cash and
cash equivalents and the corresponding cash ratios after actual FY 2011 capital
expenditures.

      KUB’s Cash Ratio Compared to Actual FY 2011 Capital Expenditures
                                       Cash and Cash Equivalents            Reserve After Actual FY 2011
                                            at June 30, 2010                   Capital Expenditures
    Amount                                       $56,940,197                           $21,140,197
    Cash Ratio Percentage                          13.55%                                 5.03%
                                                                                                         Table 2

KUB officials stated they have a “balanced scorecard” approach to their cash
philosophy. They have internal targets for a cash balance after meeting bond
covenants and maintaining an appropriate debt balance. The contingency
reserve fund has enough cash to meet 45 days of obligations and is recalculated
each year. KUB also keeps a “rainy day” fund of $4 million. KUB has developed
a debt-management policy that is publically available.
3
     TVA reviews the cash ratios of distributors as part of its regulatory rate review function. Cash ratio is
     calculated as follows:                         Cash + Cash Equivalents                                   s
                            Total Variable Expenses (Operations and Maintenance + Purchased Power)
Audit 2010-13658                                                                                           Page 2
                                             Audit 2010-1328e 2
                                       TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                 Audit Report


According to KUB records, from FYs 2006 through 2010, KUB did not have a rate
increase/decrease other than passing through TVA’s (1) wholesale increases in
October 2008 and October 2009 and (2) Fuel Cost Adjustment amount as it was
increased or decreased during the audit period.

A complete discussion of the audit objective, scope, and methodology is included
as an Appendix.

FINDINGS
Our audit of TVA’s Power Contract with KUB determined:

    KUB was not in compliance with the key contract provision regarding
     approved uses of electric revenue by disbursing electric funds for economic
     development and charging expenditures to an electric system operating
     expense account.
    KUB generally complied with the other two key contract provisions; however,
     we noted several customer misclassifications.
    KUB could improve compliance with other contract provisions and/or KUB
     policy by (1) obtaining and maintaining required documentation and
     (2) increasing accuracy of contract demand4 in the billing system.
    TVA’s oversight of distributors should be enhanced.

The following provides a detailed discussion of our findings.




4
    Demand is a measure of the rate at which energy is consumed. The demand an electric company must
    supply varies with the time of day, day of the week, and the time of year. Peak demand seldom occurs
    for more than a few hours or fractions of hours each month or year, but electric companies must maintain
    sufficient generating and transmission capacity to supply the peak demand. Demand charges represent
    the high costs electric companies pay for generating and transmission capacity that sits idle most of the
    time. Demand charges are based on the amount of energy consumed in a specified period of time
    known as a demand interval. Demand intervals are usually 15 or 30 minutes. (Engineering Tech Tips,
    December 2000, Dave Dieziger, Project Leader, United States Department of Agriculture Forest Service,
    Technology & Development Program, http://www.fs.fed.us/eng/pubs/htmlpubs/htm00712373/index.htm.)
    For TVA distributors, the commercial and manufacturer Schedules of Rates and Charges direct that
    metered demand be calculated as “. . . the highest average during any 30-consecutive-minute period of
    the month of the load metered in kW.”
Audit 2010-13658                                                                                     Page 3
                                          Audit 2010-1328e 3
                                    TVA RESTRICTED INFORMATION
Office of the Inspector General                                          Audit Report


USE OF ELECTRIC REVENUE FOR UNAPPROVED PURPOSES
KUB’s electric system deposited $76,500 to an economic development account
shared by the four KUB utility service departments in FY 2009. From this shared
economic development account, three disbursements in FY 2009 totaling
$59,925 and two disbursements in FY 2010 totaling $51,450 (cumulative total of
$111,375) were made and charged to an electric operating expense account
(Account 921000 – Administrative and General, Office Supplies and Expenses).
This use of electric funds falls outside the current Power Contract provisions for
approved uses. More specifically, Section 6 of the Power Contract, “Use of
Revenues,” defines approved uses of revenues from electric system operations,
including any surplus, as: (1) operating expenses; (2) debt service;
(3) reasonable reserves for renewals, replacements, and contingencies and cash
working capital adequate to cover operating expenses for a reasonable number
of weeks; (4) tax equivalent payments; and (5) new electric system construction
or the retirement of debt prior to maturity.

In response to a similar finding in a previous distributor audit, TVA management
agreed this practice is not expressly allowed under the Power Contract. TVA
management stated they plan to recommend the TVA Board formally approve a
Use of Revenues policy, which would expressly approve distributors’ use of
electric system revenues for economic development under certain circumstances.
If the TVA Board approves this policy, this practice may no longer be a violation of
the Power Contract provisions. However, if this approval is not granted, we
consider this to be a noncompliance issue that should be discontinued.

In addition to being an unallowable use of funds according to the Power Contract,
per Section 1(b), “Schedule of Terms and Conditions,” KUB is required to keep
the electric system general books of accounts in accordance with the Federal
Energy Regulatory Commission. Accordingly, payments or donations for
charitable, social, or community welfare purposes (which, in the opinion of the
Office of the Inspector General [OIG], the identified expenditures classified by
KUB as economic development fall under) should be recorded in a nonoperating
expense account (Account 426.1 – Donations).




Audit 2010-13658                                                              Page 4
                                        Audit 2010-1328e 4
                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                      Audit Report


IMPROPER REPORTING OF ELECTRIC SALES AND/OR
POTENTIAL DISCRIMINATION IN PROVIDING POWER TO
CUSTOMERS
Although KUB generally complied with these two key contract provisions, during
our review of KUB’s billing data, we identified two customer classification issues
that could impact the (1) proper reporting of electric sales and/or (2) ability to
ensure nondiscrimination in providing power to members of the same rate class.5
The specific issues we found pertain to misclassified residential accounts.

We reviewed detailed billing data for approximately 173,000 accounts classified
under the Residential Rate – Schedule RS6 and identified 945 accounts that
appeared to be improperly classified based on the account’s name (e.g., LLC, Inc.,
Services, Associates, Construction, etc.). From these 945 accounts, we selected
a nonstatistical random sample of 200 accounts for further review. At our request,
KUB reviewed the 200 accounts and determined (1) 4 accounts should have
been classified under the commercial General Power Rate – Schedule GSA,7
(2) 128 accounts were no longer active, and (3) 68 accounts were correctly
classified. The 4 misclassified accounts were for service to business offices,
which do not qualify as a single-family dwelling, and KUB reclassified the accounts
during the audit. The monetary impact of these 4 misclassifications would not be
significant to KUB or TVA. Projection of the results was not appropriate because
nonstatistical sampling was used.

In addition to our review of account names, we ran queries that identified
2,597 locations appearing to be serviced by multiple residential meters (5,657).
From these 5,657 meters, we selected a nonstatistical random sample of
35 meters assigned to physical locations with two or more residential meters. By
including the other residential meters at these physical locations, the sample total
resulted in 74 residential meters. KUB reviewed the 74 meters and determined

5
    Section 4, “Resale Rates,” subsection (a) of the Power Contract between TVA and KUB dated May 13,
    2002, states, “. . . power purchased hereunder shall be sold and distributed to the ultimate consumer
    without discrimination among consumers of the same class and that no discriminatory rate, rebate, or
    other special concession will be made or given to any consumer.”
6
    Under the Residential Rate – Schedule RS, customers are classified based on the following requirement:
    “This rate shall apply only to electric service to a single-family dwelling (including its appurtenances if
    served through the same meter), where the major use of electricity is for domestic purposes such as
    lighting, household appliances, and the personal comfort and convenience of those residing herein.”
7
    Under the General Power Rate – Schedule GSA, customers are classified based on the following
    requirements:
     GSA Part 1 – If (a) the higher of (i) the customer’s currently effective contract demand, if any, or (ii) its
        highest billing demand during the latest 12-month period is not more than 50 kW, and
        (b) customer’s monthly energy takings for any month during such period do not exceed 15,000 kWh.
     GSA Part 2 – If (a) the higher of (i) the customer’s currently effective contract demand or (ii) its
        highest billing demand during the latest 12-month period is greater than 50 kW but not more than
        1,000 kW or (b) the customer’s billing demand is less than 50 kW and its energy takings for any
        month during such period exceed 15,000 kWh.
     GSA Part 3 – If the higher of (a) the customer’s currently effective contract demand or (b) its highest
        billing demand during the latest 12-month period is greater than 1,000 kW.
Audit 2010-13658                                                                                           Page 5
                                            Audit 2010-1328e 5
                                      TVA RESTRICTED INFORMATION
Office of the Inspector General                                           Audit Report


73 were correctly classified, and 1 meter was no longer in service. According to
KUB personnel, 9 of the meters were classified as residential based on state of
Tennessee “sales and use tax” classification criteria. However, according to both
KUB’s Retail and TVA’s Wholesale Residential Rate schedule, residential rates
apply only “. . . to a single-family dwelling (including its appurtenances if served
through the same meter), where the major use of electricity is for domestic
purposes such as lighting, household appliances, and the personal comfort and
convenience of those residing therein.” Based on these rate schedule criteria, we
maintain the 9 meters representing accounts for separately metered barns or
garages do not qualify as single-family dwellings or associated appurtenances
and should be classified under the commercial GSA schedule. The monetary
impact of these 9 misclassifications would not be significant to KUB or TVA.
Projection of the results was not appropriate because nonstatistical sampling was
used.

OTHER ISSUES
We identified two areas where KUB could improve compliance with other
contract provisions and/or KUB policy by (1) obtaining and maintaining required
documentation and (2) increasing accuracy of contract demand in the billing
system.

   KUB could not provide fully executed contracts for 10 of 35 customer accounts
    tested that should have a contract.
   Contract demand in the billing system did not agree with the contract demand
    amount stated in the contract for 9 of 35 accounts tested.
   KUB could not provide the required participation agreement for 1 of
    27 accounts receiving the Small Manufacturing Credit (SMC) credit.

Customer Contracts Not on File
The original Power Contract required all customers who exceed 50 kW per
month to sign a formal contract. In 2002, KUB was granted authority to
determine all components of its retail rates (i.e., energy usage and demand
thresholds, amounts to charge, etc.). After TVA increased the threshold for
requiring a customer contract to accounts exceeding 1 megawatt (in February
2011), KUB increased its customer contract requirement to accounts exceeding
500 kW. Each customer contract includes a contract demand that is used in
placing the account in the correct classification. Contract demand is also used in
calculating the account’s billed demand and minimum bill in addition to
determining the correct rate classification; therefore, having the required contract
documentation is necessary to support the classification assigned and the rates
charged.

To determine compliance with KUB’s policy, we selected a nonstatistical random
sample of 35 customer accounts from the 235 accounts (14.9 percent) that should
have a contract. We found 10 of these 35 accounts (28.6 percent) did not have a
Audit 2010-13658                                                               Page 6
                                        Audit 2010-1328e 6
                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                             Audit Report


fully executed contract for either a portion of or the entire audit period. As a result
of our audit, KUB (1) obtained or is in the process of obtaining contracts for 3 of
these accounts and (2) will not get contracts for 3 other accounts because the
account is either no longer active or has not exceeded KUB’s demand threshold
requirement for customer contracts since the audit period. For the remaining
4 accounts, 1 account had an unsigned contract for the audit period, and
3 accounts did not have a contract for either a portion of or the entire audit period;
however, KUB was able to provide a current contract for these 3 accounts.
Projection of the results was not appropriate because nonstatistical sampling was
used.

Inaccuracy of Contract Demand Information in Billing System
In our sample of 35 accounts that should have a contract, we found contract
demand in the billing system was missing or did not agree with the contract
demand stated in the contract during a portion of or the entire audit period for
9 accounts (25.7 percent). As a result of our audit, KUB corrected the contract
demand in the system for 5 of these accounts. KUB could not provide a fully
executed contract for a portion of the audit period for 1 other account, so we
could not verify the contract demand in the system was correct for that period.
However, a fully executed copy of the current contract was provided, and we
noted the contract demand amount in the system agrees with the contract. For
the remaining 3 accounts, KUB informed us the contract demand in the system
did not need to be corrected because the account is either no longer active or
has not exceeded KUB’s demand threshold requirement for contracts since the
audit period. Projection of the results was not appropriate because nonstatistical
sampling was used.

Verifying all components applicable to an account have been entered into the
billing system accurately in accordance with the supporting documentation is
necessary for each account to (1) be properly classified; (2) have energy,
demand, minimum bill charges, and applicable credits calculated correctly; and
(3) receive credits as appropriate.

Required SMC Documentation Not on File
KUB could improve contract compliance by consistently obtaining and
maintaining required SMC documentation. According to the SMC agreement
between KUB and TVA, the distributor shall obtain a signed application form from
each customer indicating the applicable Standard Industrial Classification code
and certifying the customer’s eligibility to receive the credit. KUB did not have
the required application form on file for 1 of the 27 participants (3.7 percent)
receiving the SMC. We noted the other eligibility requirements were met for
these customers.




Audit 2010-13658                                                                 Page 7
                                        Audit 2010-1328e 7
                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                               Audit Report


TVA OVERSIGHT OPPORTUNITIES
We identified two areas where TVA’s oversight of distributors should be
enhanced. The two issues addressing (1) distributors using electric funds for
economic development and (2) the lack of a joint cost study every 3 to 4 years or
when a significant change occurs in accordance with the TVA Accountant’s
Reference Manual have been reported in previous OIG distributor audit reports.
TVA has agreed to take corrective action on these issues. A full discussion of
the previously reported issues and TVA’s planned actions can be found in prior
OIG distributor audit reports8 on our Web site, www.oig.tva.gov.

RECOMMENDATIONS
We make 6 specific recommendations in this report that require KUB action and
recommend TVA’s Senior Vice President, Policy and Oversight, work with KUB
to resolve them. These recommendations generally relate to (1) complying with
Power Contract provisions and (2) remediating classification issues. Specifically,
KUB should address the following recommendations associated with the findings
described previously in this report.

Use of Electric Revenue for Unapproved Purposes

1. Discontinue the practice of using electric funds for economic development
   unless the TVA Board formally approves a Use of Revenues policy that
   expressly approves distributors’ using electric funds for economic development
   expenses under certain circumstances.

     KUB’s Response – KUB stated it supports the TVA Board taking action to
     adopt a Use of Revenues policy or to modify distributors’ power supply
     contracts to expressly approve use of electric system funds for economic
     development purposes. However, KUB also stated it intends to continue the
     practice of using modest amounts of electric system funds for economic
     development purposes for the following reasons: (1) the number and dollar
     value of KUB’s economic development transactions are immaterial to the
     electric system; (2) the expenses promote growth in the community; and
     (3) TVA often encourages and matches said expenses. See Appendix B for
     KUB’s complete response.

     TVA Management’s Comments – TVA management stated they do not
     agree with the recommendation to the extent it recommends changing TVA’s
     position on economic development expenditures prior to completion of the
     currently ongoing review of TVA regulatory policy and the TVA Board’s action
     on that review. However, TVA management agreed it would be good for the
     TVA Board to formally approve a Use of Revenues policy, which contains
8
    2010-13659 – Distributor Audit of Meriwether Lewis Electric Cooperative dated March 22, 2012;
    2008-12036 – Distributor Review of City of Oxford Electric Department dated August 31, 2009.
Audit 2010-13658                                                                                    Page 8
                                         Audit 2010-1328e 8
                                   TVA RESTRICTED INFORMATION
Office of the Inspector General                                             Audit Report


    clearer standards regarding when TVA will approve using distributor electric
    system funds for economic development expenses under certain
    circumstances. See Appendix C for TVA’s complete response.

    Auditor’s Response –The OIG maintains that until the TVA Board formally
    approves a Use of Revenues policy (as recommended by the OIG in
    May 2009) that expressly approves distributors using electric funds for
    economic development expenses under certain circumstances, such use is
    not allowed under the terms of the current Power Contract.

2. Properly account for economic development expenditures as nonoperating
   expenses in Account 426.1 (Donations).

    KUB’s Response – KUB agreed with the recommendation. KUB stated
    current FY economic development expenses have been reclassified as
    nonoperating expenses under Account 426.1, as defined by the Federal
    Energy Regulatory Commission, and future economic development expenses
    will be accounted for in the same manner. See Appendix B for KUB’s
    complete response.

    TVA Management’s Comments – TVA management agreed with the
    recommendation to the extent that the expenses were charitable and made in
    the course of being a good corporate citizen and should be classified in
    Account 426.1 (Donations). However, TVA management views reasonable
    economic development expenditures as providing a benefit to the electric
    system by way of promoting or retaining the use of utility services by present
    and prospective customers that should be classified in Account 912
    (Demonstrating and Selling Expenses). See Appendix C for TVA’s complete
    response.

    Auditor’s Response – The OIG agrees with the actions taken by KUB.

Improper Reporting of Electric Sales and/or Potential Discrimination in Providing
Power to Customers

3. Review and modify process(es) in place to identify all residential accounts
   that should be commercial and reclassify as appropriate.

    KUB’s Response – KUB agreed with the recommendation. KUB stated it
    has reviewed its controls and implemented additional queries within its
    customer billing system to appropriately identify customer accounts. KUB
    also stated accounts identified during the audit have been reclassified
    appropriately. See Appendix B for KUB’s complete response.

    TVA Management’s Comments – TVA management stated TVA has no
    legal basis for correcting misclassifications except for potential discrimination
    in retail billing since the Power Contract was amended in 2002. With respect
Audit 2010-13658                                                                 Page 9
                                        Audit 2010-1328e 9
                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                            Audit Report


    to wholesale billing, TVA management plans to further investigate and make
    sure KUB has not improperly received any wholesale hydro credits. See
    Appendix C for TVA’s complete response.

    Auditor’s Response – The OIG agrees with the actions taken by KUB.

Other Issues

4. Obtain and maintain properly executed effective customer contracts for all
   customers with demand in excess of 500 kW in accordance with KUB policy.

    KUB’s Response – KUB agreed with the recommendation. KUB stated all
    customer accounts that exceed the 500 kW demand threshold have been
    reviewed, and KUB is in the process of contacting those customers to acquire
    any required demand contracts. KUB also stated that additional processes
    have been initiated to actively monitor accounts for any customers who may
    exceed the 500 kW demand threshold. See Appendix B for KUB’s complete
    response.

    TVA Management’s Comments – TVA management stated TVA has no
    legal basis for enforcing the written contract requirement unless there is
    indication KUB is engaging in discrimination since the Power Contract was
    amended in 2002. TVA management also stated they have seen no evidence
    of KUB discrimination that would merit TVA action. See Appendix C for
    TVA’s complete response.

    Auditor’s Response – The OIG agrees with the actions taken by KUB.

5. Review and modify the process for entering customer contract demand into
   the billing system to verify (a) only customers with a fully executed contract
   have a contract demand value in the billing system, and (b) the contract
   demand value in the system agrees with the customer’s contract.

    KUB’s Response – KUB agreed with the recommendation. KUB anticipates
    that all demand contracts will be in place by September 30, 2012, and has
    reviewed its current processes, implementing improvements to strengthen its
    controls over data entry and contract management. See Appendix B for
    KUB’s complete response.

    TVA Management’s Comments – TVA management agreed with the
    recommendation and stated the distributor should have good internal controls
    to verify data is entered correctly into the system, especially as the data entry
    might impact TVA wholesale billing. See Appendix C for TVA’s complete
    response.

    Auditor’s Response – The OIG agrees with the actions planned and taken
    by KUB.
Audit 2010-13658                                                              Page 10
                                        Audit 2010-1328e 10
                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                         Audit Report


6. Obtain and maintain required documentation for customers receiving credits
   under the TVA SMC program.

    KUB’s Response – KUB agreed with the recommendation. KUB stated
    contracts are in place for all customers receiving credits under the TVA SMC
    program, and a monthly query to ensure that all customers receiving credits
    have the appropriate documentation on file has been implemented. See
    Appendix B for KUB’s complete response.

    TVA Management’s Comments – TVA management agreed with the
    recommendation and stated the distributor should have documentation for
    customers receiving credits under the TVA SMC program. See Appendix C
    for TVA’s complete response.

    Auditor’s Response – The OIG agrees with the actions taken by KUB.




Audit 2010-13658                                                           Page 11
                                        Audit 2010-1328e 11
                                  TVA RESTRICTED INFORMATION
                                                                          APPENDIX A
                                                                           Page 1 of 3

OBJECTIVE, SCOPE, AND METHODOLOGY
This audit was included in our annual distributor audit plan based on our review
of several factors including the distributor’s percentage of electric sales revenue,
cash ratio, joint operations, SAS 70 review results, and surplus ratio. The
objective was to determine compliance with key provisions of the Power Contract
between the Tennessee Valley Authority (TVA) and Knoxville Utilities Board
(KUB) and not to assess the distributor’s or TVA’s system of internal controls.
Therefore, controls associated with contract provisions listed below were not
tested as part of this audit. The key contract provisions include:

   Proper reporting of electric sales by customer class to facilitate proper
    revenue recognition and billing by TVA.
   Nondiscrimination in providing power to members of the same rate class.
   Use of revenues, including any surplus, for approved purposes, such as:
     Operating expenses
     Debt service
     Reasonable reserves for renewals, replacements, and contingencies

To achieve our objective, we:

   Obtained electronic billing data for the audit period and created a database
    for use in performing analytical testing. To validate the reliability of the billing
    data, we compared the data to the information reported to TVA on the
    Schedule 1. No significant differences were noted; therefore, the data was
    deemed reliable.
   Performed queries on the billing data to identify classification, metering, and
    contract compliance issues. We reviewed results of the queries and where
    possible exceptions were identified, selected accounts for further analysis and
    follow up to determine whether misclassification, metering issues, or
    noncompliance with contract requirements occurred. Where large numbers of
    potential exceptions were identified, we selected accounts for further analysis
    and followed up using nonstatistical samples. Projection of the results was
    not appropriate because nonstatistical sampling was used.
     When performing our analysis of residential accounts, we used the
        detailed billing data and:
         Isolated accounts classified as residential that contained words in the
           account name commonly used to refer to business entities (e.g., LLC,
           partner, Inc., etc.). As a result of this review, we identified 945 possible
           exceptions from the population of approximately 173,000 residential
           accounts. Due to the large number of potential exceptions, we
           assigned numbers to the 945 accounts and used a random number
           generator to select a nonstatistical sample of 200 accounts
           (21.2 percent) to have distributor personnel review for accurate
           classification. Because our sample was nonstatistical, we could not
           project the number of misclassifications to the population based on our
           results.
                             TVA RESTRICTED INFORMATION
                                                                       APPENDIX A
                                                                        Page 2 of 3

OBJECTIVE, SCOPE, AND METHODOLOGY (cont.)
         Ran an automated query to identify any physical locations with
          multiple meters classified as residential at the location. Our analysis
          identified 2,597 locations with multiple residential meters, for a total of
          5,657 residential meters, from the population of approximately
          173,000 residential accounts. We assigned numbers to the
          5,657 meters and used a random number generator to select a
          nonstatistical sample of 35 meters (0.6 percent) for additional review
          and follow up with the distributor. The physical locations for these
          35 meters had a total of 74 meters assigned to them that were
          classified as residential accounts.
     When reviewing general schedule accounts, we used the detailed billing
      data obtained from the distributor and isolated 235 accounts with contract
      demand values in the billing system greater than or equal to 500 kW.
      We assigned numbers to the 235 locations and used a random number
      generator to select a nonstatistical sample of 35 locations (14.9 percent)
      for additional review and follow up with the distributor.
   Determined through inquiry and review of documentation whether KUB had
    any nonelectric, system-related business interests supported by electric
    system funds.
   Obtained disbursements listing for the audit period and categorized the
    disbursements by vendor name. We reviewed and analyzed disbursements
    to identify instances where electric system funds may have been used for
    purposes not allowed under the TVA Power Contract. We judgmentally
    selected a sample of 167 vendor names from the population of 1,418 vendors
    based on the vendor name and/or payment amounts. We focused on names
    that (1) had nonelectric service in the title [e.g., water, gas, etc.]; (2) could
    require allocation between multiple service departments [e.g., advertising,
    fuel, consultants, legal, etc.]; (3) possibly should not have been paid from
    electric funds [e.g., community assistance, charitable contributions, economic
    development, etc.]; and (4) were paid to employees or board members. We
    focused on payment amounts where (1) singular large payments were made
    to one entity or (2) the payments in total were considered large either by
    themselves or compared to total disbursements for the audit period. We then
    selected 75 individual transactions from the list of 167 vendor names and
    reviewed the detailed documentation. Projection of the results was not
    appropriate because nonstatistical sampling was used.
   Reviewed cash and cash equivalents in relation to actual capital expenditures
    and other business uses of cash.




                             TVA RESTRICTED INFORMATION
                                                                       APPENDIX A
                                                                        Page 3 of 3

OBJECTIVE, SCOPE, AND METHODOLOGY (cont.)
When evaluating results of our audit work, we used both qualitative and
quantitative factors when considering the significance of an item. For the
purposes of this audit, the quantitative factor(s) to be considered in determining
an item’s significance were as follows:

   If the dollar value of an error(s) and/or item of noncompliance with the
    contract exceeds 3 percent of the distributor’s average annual power cost
    during the audit period, or $11,942,230.24, it would be considered significant.
   In respect to the distributor’s unapproved use of revenues, we consider the
    following to be significant.
     A negative cash ratio results after subtracting the distributor’s funds at risk
        during the audit period (loans extended or debts guaranteed with electric
        revenues) from the cash and cash equivalents balance at the end of the
        audit period.
     Amounts expended by the electric department on behalf of a nonelectric
        department/operating unit during the audit period (without payback from
        the nonelectric department) exceed the rate increase amounts approved
        by TVA during the audit period.

The scope of the audit was for the period July 2008 through June 2010.
Fieldwork was conducted between July 2011 and March 2012 and included
visiting the distributor’s corporate office in Knoxville, Tennessee. This
performance audit was conducted in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                            TVA RESTRICTED INFORMATION
                             APPENDIX B
                              Page 1 of 2




TVA RESTRICTED INFORMATION
                             APPENDIX B
                              Page 2 of 2




TVA RESTRICTED INFORMATION
                             APPENDIX C
                              Page 1 of 4




TVA RESTRICTED INFORMATION
                             APPENDIX C
                              Page 2 of 4




TVA RESTRICTED INFORMATION
                             APPENDIX C
                              Page 3 of 4




TVA RESTRICTED INFORMATION
                             APPENDIX C
                              Page 4 of 4




TVA RESTRICTED INFORMATION
